     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region I
                                                                          John F. Kennedy Federal Building
                                                                          Room 2425
                                                                          Boston, MA 02203
April 7, 2011

Report Number: A-01-10-00013

Ms. Mary C. Mayhew
Commissioner
Maine Department of Health and Human Services
221 State Street
State House Station 11
Augusta, Maine 04333

Dear Ms. Mayhew:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Maine Department of Health and Human
Services Buy-In of Medicare Parts A and B for the Period July 1, 2008, Through December 31,
2009. We will forward a copy of this report to the HHS action official noted on the following
page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Curtis Roy, Audit Manager, at (617) 565-9281 or through email at
curtis.roy@oig.hhs.gov. Please refer to report number A-01-10-00013 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Mary C. Mayhew


Direct Reply to HHS Action Official:

Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations (CMCHO)
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF THE MAINE DEPARTMENT
 OF HEALTH AND HUMAN SERVICES
BUY-IN OF MEDICARE PARTS A AND B
   FOR THE PERIOD JULY 1, 2008
  THROUGH DECEMBER 31, 2009




                       Daniel R. Levinson
                        Inspector General

                           April 2011
                         A-01-10-00013
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

“Dual eligibles” are individuals who are eligible for benefits under both Medicare and Medicaid
because they are poor and either elderly or disabled. Dual eligibles may be eligible for the
Hospital Insurance Program (Medicare Part A) enrollment for hospital care, the Supplementary
Medical Insurance Program (Medicare Part B) insurance coverage for physician care, or both
Medicare A and B coverage. Medicare premiums are difficult for some beneficiaries to pay.
Section 1843 of the Social Security Act addresses this problem by creating an arrangement,
known as the “buy-in program,” under which participating States with Medicaid plans may
enroll dual eligibles in Medicare Parts A and B and pay the monthly premium on behalf of
these beneficiaries.

At the Federal level, Centers for Medicare & Medicaid Services has overall responsibility for
administering the buy-in program. In Maine, the Department of Health and Human Services
(the State agency) is responsible for administering the State’s buy-in program.

CMS provides the State agency the Summary Accounting Statement (SAS) to indicate the
monthly premiums due and the amount for the State to claim Federal share. The State agency is
responsible for ensuring the accuracy of the amount claimed when preparing the Form CMS-64,
Quarterly Statement of Expenditures for the Medical Assistance Program.

Our audit included Part A and B premiums claimed to CMS for the quarters ending September
31, 2008, through December 31, 2009.

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal share for Medicare
Part A and B premiums it paid on behalf of Medicaid beneficiaries in accordance with
Federal requirements.

SUMMARY OF FINDING

The State agency generally claimed Federal share for Medicare Part A and B premiums it paid
on behalf of eligible Medicaid beneficiaries in accordance with Federal requirements. However,
the State agency overstated the Federal share by making erroneous accounting entries when
preparing the Form CMS-64. As a result, the State agency overstated its Federal claim for
Medicare Parts A and B buy-in by a total of $1,410,989 ($1,053,544 Federal share).

The excessive Federal share occurred because the State agency did not have adequate internal
controls to ensure that only the actual costs incurred for Medicare Part A and B premiums were
recorded on the Form CMS-64.




                                                i
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,053,544 to the Federal Government and

   •   strengthen internal controls to ensure that only the actual costs incurred for Part A and B
       premiums are recorded on the Form CMS-64.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency concurred with our findings and
recommendations. The State agency’s comments are included in their entirety as the Appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1
              Medicaid’s Role in Paying for Part A and B Premiums ..........................1
              Administering the Buy-In Program .........................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................2
               Objective ..................................................................................................2
               Scope ........................................................................................................2
               Methodology ............................................................................................2

FINDING AND RECOMMENDATIONS ...................................................................3

          FEDERAL MEDICAID REQUIREMENTS .......................................................3

          MEDICAID REIMBURSEMENT IN EXCESS OF COST ................................3

          RECOMMENDATIONS .....................................................................................4

          STATE AGENCY COMMENTS ........................................................................4

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act) the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Medicaid’s Role in Paying Medicare Part A and B Premiums

“Dual eligibles” are individuals who are eligible for benefits under both Medicare and Medicaid
because they are poor and either elderly or disabled. Dual eligibles may be eligible for the
Hospital Insurance Program (Medicare Part A) enrollment for hospital care, the Supplementary
Medical Insurance Program (Medicare Part B) insurance coverage for physician care, or both
Medicare Part A and B coverage. Medicare premiums are difficult for some beneficiaries to pay.
Section 1843 of the Act addresses this problem by creating an arrangement, known as the “buy-
in program,” under which participating States with Medicaid plans may enroll dual eligibles in
Medicare Parts A and B and pay the monthly premium on behalf of these beneficiaries. The
State is eligible to receive Federal financial participation (referred to in this report as “Federal
share”) through the Medicaid program to assist in paying these Part A and B premiums for
certain groups of dual eligibles. States may enter into a State Buy-In Agreement with CMS to
enroll eligible beneficiaries in Parts A and B and pay their premiums (buy-in).

Monthly Medicare Part A and B premiums the States pay on behalf of individuals enrolled under
State Buy-In Agreements are considered vendor payments and most are reimbursable under
Medicaid at the Federal medical assistance percentage (FMAP), which is State specific and
calculated pursuant to section 1905(b) of the Act. For the quarters ending September 30, 2008,
through December 31, 2009, Maine’s FMAP ranged from 63.31 percent to 74.86 percent
(including payments for the American Recovery and Reimbursement Act).

Administering the Buy-In Program

At the Federal level, CMS has overall responsibility for administering the buy-in program. CMS
maintains a buy-in master file that contains information on beneficiaries eligible for buy-in. It
uses the buy-in master file to prepare monthly billing notices for the States for Part A and B
premiums and to identify those premiums eligible to be claimed for Federal share.

In Maine, the Department of Health and Human Services (the State agency) is responsible for
administering the State’s buy-in program. The State is responsible for establishing internal
procedures and systems to identify individuals eligible for buy-in, communicating this
information to CMS, and responding to actions taken by CMS on individual cases. As part of

                                                 1
this responsibility, the State agency is responsible for the accuracy of the individuals’ eligibility
codes and is required to update these codes routinely, including the mandatory buy-in eligibility
codes, in the CMS master file.

The State agency is also responsible for verifying the accuracy and validity of the information in
the buy-in processing systems. If the information in the systems is erroneous, it is the State
agency’s responsibility to correct, or have CMS correct, the errors. Through the use of eligibility
codes, individuals in the buy-in program are grouped into various eligibility categories. These
eligibility codes identify individuals in the buy-in program whose premiums are eligible to be
claimed for Federal share.

CMS used the State’s updates to amend the CMS buy-in master file. Using the master file, CMS
provided the State agency the Summary Accounting Statement (SAS) to indicate the monthly
premiums due and the amount for the State to claim Federal share.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal share for Medicare
Part A and B premiums it paid on behalf of Medicaid beneficiaries in accordance with
Federal requirements.

Scope

Our audit included $147,918,348 of Part A and B premiums paid by the State agency and
the $149,329,337 claimed to CMS for the quarters ending September 31, 2008, through
December 31, 2009.

Our review of internal controls was limited to an understanding of the State agency’s procedures
for the following: identifying and reporting to CMS individuals in eligible buy-in categories,
recording and paying Medicare premiums as billed by CMS, and claiming Federal share
as applicable.

We conducted fieldwork at the Medicaid agency in Augusta, Maine, from August 2010 through
February 2011.

Methodology

To accomplish our audit objective, we:

   •    reviewed the Federal and State regulations, policies, and procedures related to buy-in,
        including the CMS State Medicaid Manual, CMS Buy-In Program Manual and Maine’s
        buy-in agreements;

   •    reviewed applicable working papers prepared by Maine State Auditors;

                                                  2
   •   interviewed CMS, State agency, and Maine State Auditor officials;

   •   obtained and compared CMS’s monthly SAS for Part A and B premiums to the Medicaid
       Management Information System (MMIS) and Form CMS-64, Quarterly Statement of
       Expenditures for the Medical Assistance Program; and

   •   reviewed a judgmentally selected sample of 31 beneficiaries whose monthly premiums
       were reimbursed through the buy-in program to determine whether these beneficiaries
       were eligible for Federal share.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATIONS

The State agency generally claimed Federal share for Medicare Part A and B premiums it paid
on behalf of eligible Medicaid beneficiaries in accordance with Federal requirements. However,
the State agency overstated the Federal share by making erroneous accounting entries when
preparing the Form CMS-64. As a result, the State agency overstated its Federal claim for
Medicare Parts A and B buy-in by a total of $1,410,989 ($1,053,544 Federal share).

FEDERAL MEDICAID REQUIREMENTS

Pursuant to 42 CFR § 430.30, the State agency must submit its actual recorded expenditures as
part of its Form CMS-64 to the central office not later than 30 days after the end of each quarter.

Furthermore, pursuant to 42 CFR § 433.32(a), the State agency must “[maintain] an accounting
system and supporting fiscal records to assure that claims for Federal funds are in accord with
applicable Federal requirements.”

MEDICAID REIMBURSEMENT IN EXCESS OF COST

The State agency was reimbursed Federal share in excess of the actual cost for Medicare Parts A
and B buy-in. Specifically, the State agency overstated the Federal share by making erroneous
accounting entries when preparing the Form CMS-64. The State agency subsequently claimed
reimbursement, through the Form CMS-64, for buy-in program costs that were greater than the
costs reported in the SAS. As a result, the State agency overstated its Federal claim by
$1,410,989 ($1,053,544 Federal share).

According to State agency officials, these overstatements occurred because the State agency did
not have adequate internal controls to ensure that only the actual costs incurred for Medicare Part
A and B premiums were recorded on the Form CMS-64.

                                                 3
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,053,544 to the Federal Government and

   •   strengthen internal controls to ensure that only the actual costs incurred for Part A and B
       premiums are recorded on the Form CMS-64.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency concurred with our findings and
recommendations. The State agency’s comments are included in their entirety as the Appendix.




                                                4
APPENDIX
                                      APPENDIX: STATE AGENCY COMMENTS                                       Page 1 of2
                                                                                   Department of H ealth and H1U11an Services
                                                                                                          Commissioner's Office
                                                                                                                   221 State Street
                                                                                                         # 11 State H ouse Station
                                                                                                    A llgusta, Maine 04333-0011
                                                                                                               Tel: (207) 287-3707
Paul R. LePage, Governor   _M_Of_Y_C_,M_o_
                                         yi_le"_',_C_orr'm
                                                      _ _issio
                                                           _ _n_er_ _ _ _ __ _ __ _ _F..;...
                                                                                        :a~x(207) 287-3005; TTY: 1-800-606-0215




                                                           March 28, 2011


       Mr. Michael J. Armstrong, Regional Inspector General for Audit Services 

       Office of Audit Services, Region I 

       John F. Kennedy Federal Building, Room 2425 

       Boston, MA 02203 


               Re: Review of the Maine Department ofHealth & Human Services Buy-In ofMedicare 

                  Parts A and B for the Period July 1,2008 Through December 31,2009 - Report 

                                             Number A-Ol-lO-00013 


       Dear Mr. Armstrong:

               The Department of Health and Human Services (DHHS) appreciates the opportunity to
       respond to the above mentioned draft audit report. We offer the following corrunents in relation
       to the recommendations on Page 4 of this report.

               For your convenience, below we include the summary finding and list each 

       recommendation followed by our response. Each response includes the State' s proposed 

       corrective action plan which we believe will bring the State into compliance with Federal 

       requirements. 


       ,Finding:
           The State agency was reimbursed Federal share in excess of the actual cost for Medicare Part
           A and B buy-in. Specifically, the State agency overstated the Federal shm'e by making
           erroneous accounting entries when preparing the Form CMS-64. The State agency
           subsequently claimed reimbursement, through the Form CMS-64, for buy-in program costs
           that were greater than the costs reported in the Summary Accounting Statement. As a result,
           the State agency overstated its Federal claim by $1 ,410,989 ($1,053,544 Federal share).

            According to State agency officials, these overstatements occurred because the State agency
            did not have adequate internal controls to ensure that only the actual costs incurred for
            Medicare Part A and B premiums were recorded on the Form CMS-64.

      Recommendation:
         Refund $ I ,053,544 to the Feeleral Government




                                                Caring..RespoTlsive .. V\l ell-Managed..We are DHHS.
                                                                                   Page 2 of2

Page Two

Response:
   DHHS agrees with this recommendation. DI-IHS has made adjustments to correct the
   $1,410,989 overstated on its Form CMS-64.

   An adjustment on the September 30, 2010 CMS-64 was made for the quarter ended
   December 31, 2009. $947,848 was reversed and the correct amount $70,562 was entered.

   The incorrect expense amount, $533,703 entered on the June 30, 2009 CMS-64, was
   corrected on the December 31, 2010 CMS-64.

Recommendation:
   Strengthen internal controls to ensure that only the actual costs incurred for Part A and B
   premiums are recorded on the Form CMS-64.

Response:
   DHHS agrees with this recommendation. DHHS has implemented policies and procedures to
   ensure that actual costs incurred for Part A and B premiums are recorded on the Form CMS­
   64. The Summary Accounting Statement is now reconciled to the appropriate lines on t.he
   Form CMS-64.

       We appreciate the time spent in Maine by OIG staff reviewing Maine's Buy-In of
Medicare Part A and B. We believe this effort will enable us to perfoDll. this function more
accurately in the future .


                                           Sincerely,


                                        ;tf¥/~
                                           Mary C. Mayhew
                                           Commissioner

MCMPtdv
